HHS/OIG-Audit--"Review of Unfunded Pension Costs of Arkansas Blue Cross and Blue Shield, (A-07-98-02526)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Arkansas Blue Cross and Blue Shield,"
(A-07-98-02526)
September 3, 1998
Complete Text of Report is available in PDF format
(720 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of Arkansas Blue Cross and Blue Shield. During our previous review of Arkansas
Blue Cross and Blue Shield (Arkansas) (CIN: A-07-93-00678), we determined that
the Medicare segment accumulated $955,454 in unfunded pension costs as of January
1, 1992. We recommended that Arkansas identify those unfunded pension costs
as an unallowable component of subsequent years' pension cost calculations.
We also recommended that Arkansas update the accumulated unfunded pension costs,
and identify and track similar costs occurring in later years.
Our current review showed that Arkansas did identify and update the accumulated
unfunded pension costs from 1992 through 1996, and that there were no additional
unfunded pension costs during this period. However, we determined that Arkansas
understated its accumulated unfunded pension costs by $153,269 as of January
1, 1997. The understatement occurred because Arkansas inappropriately began
amortizing the accumulated unfunded costs as a component of the Medicare segment's
pension costs in 1996.
We recommend that Arkansas increase the January 1, 1997 accumulated unfunded
pension costs of the Medicare segment by $153,269. We also recommend that Arkansas
obtain approval of its contracting officer before including any portion of the
accumulated unfunded costs as a component of the Medicare segment's pension
costs. Arkansas concurred with our finding and recommendations.